                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                               Was hi ng ton, DC 20415


   Office of lhe
inspector General                        December 16, 20 1 3
                                                                             Report No. 4A-CF-00-13-035


           MEMORANDUM FOR KATHERINE ARCHULETA
                                    Director                                                      (.--"../_ . - /

           FROM:                    PATRICK E. McFARLAND                 d ~ {._ ~~- (
                                    Inspector General                    V   ~
            SUBJECT:                Audit of the Office of Personnel Management's Fiscal Year
                                    2013 Closing Package Financial Statements


           This memorandum transmits KPMG LLP' s (KPMG) report on the Office of Personnel
           Management's (OPM) Fiscal Year 2013 Closing Package Financial Statements and the
           results ofthe Office of the Inspector General's (OIG) oversight ofthe audit and review of
           that report. OPM' s Closing Package Financial Statement Reports include the reclassified
           balance sheets, the statements of net cost, the statements of changes in net position, and
           the accompanying notes as of September 30, 2013 and 20 12; the Additional Note No. 31;
           and the trading partner balance sheets, the statements of net cost, and the statements of
           changes in net position as of September 30, 2013 (hereinafter collectively referred to as
           the closing package financial statements). These closing package financial statements
           directly link the entities' audited consolidated department-level fmancial statements to
           the Financial Report of the Government (the government-wide financial statements).

            We contracted with the independent certified public accounting firm KPMG to audit
            OPM's closing package financial statements as of September 30, 2013 and 2012. The
            contract requires that the audit be done in accordance with generally accepted government
            auditing standards (GAGAS) and the Office of Management and Budget Bulletin No. 14-
            02, Audit Requirements for Federal Financial Statements.

            KPMG reported that OPM's closing package fmancial statements are presented fairly, in
            all material respects. KPMG noted no matters involving the internal control over the
            financial process for the closing package financial statements that are considered a
            material weakness or significant deficiency. KPMG disclosed no instances of
            noncompliance or other matters that are required to be reported. The objectives of
            KPMG' s audits of the closing package financial statements did not include expressing an
            opinion on internal controls or compliance with laws and regulations, and KPMG,
            accordingly, does not express such opinions.




        www.opm .gov                                                                            www.usajobs.gov
Honorable Katherine Archuleta                                                              2


OIG Evaluation of KPMG’s Audit Performance

In connection with the audit contract, we reviewed KPMG’s report and related documentation
and made inquiries of its representatives regarding the audit. To fulfill our audit
responsibilities under the Chief Financial Officers Act for ensuring the quality of the audit
work performed, we conducted a review of KPMG’s audit of OPM’s Fiscal Year 2013 and
2012 closing package financial statements in accordance with Government Auditing
Standards (GAS). Specifically, we:

   •   provided oversight, technical advice, and liaison to KPMG auditors;

   •   ensured that audits and audit reports were completed timely and in accordance
       with the requirements of GAGAS, OMB Bulletin 14-02, and other applicable
       professional auditing standards;

   •   documented oversight activities and monitored audit status;

   •   reviewed responses to audit reports and reported significant disagreements to the
       audit follow-up official per OMB Circular No. A-50, Audit Follow-up;

   •   coordinated issuance of the audit report; and

   •   performed other procedures we deemed necessary.

Our review, as differentiated from an audit in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on OPM’s closing package financial statements. KPMG is responsible
for the attached auditor’s report dated December 16, 2013, and the conclusions expressed
in the report. However, our review disclosed no instances where KPMG did not comply,
in all material respects, with the generally accepted GAS.

If you have any questions about KPMG’s audit or our oversight, please contact me at
606-1200 or you may have a member of your staff contact Michael R. Esser, Assistant
Inspector General for Audits, at

Attachment


cc: Dennis Coleman
    Chief Financial Officer


   Deputy Chief Financial Officer
